U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Eric Gerard McGinnes v. United States of America,
S.Ct. No. 20-6046

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 13,
2020, and placed on the docket on October 16, 2020. The government’s response is due on
November 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 16, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6046
MCGINNIS, ERIC GERARD
USA

BRANDON ELLIOT BECK
FEDERAL PUBLIC DEFENDERS OFFICE
1205 TEXAS AVENUE
SUITE 507
LUBBOCK, TX 79401
806-472-7236
BRANDONEBECK@GMAIL.COM

